r

Supreme Court, U.S
FILED
h.

No.

JUN I 0 2021
OFFICE OF THE m

.1

SUPREME COURT OF THE UNITED STATES

Bin Yang
Petitioner
vs.
The Board of Registered Nursing
Respondent

On Petition for a Writ of Certiorari to
The Supreme Court of California
PETITION FOR WRIT OF CERTIORARI

Bin Yang
P.O. Box 14
Beverly Hills, CA 90213
310-668-1828

RECEIVED
JUN 1 6 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

1
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Board of Registered Nursing

r

I. Questions Presented
1. Why is Petitioner NOT ALLOWED to withdraw her application from a nursing
board (quit) while she could do so from medical boards?
2. Why is Petitioner not allowed to have “a mental exam” from a university expert
who can best ensure public safety but “the expert” who will say anything that
Respondent desires?
3. Is it unconstitutional for licensing agents to set innocent up with “their experts,”
AGAIN AND AGAIN, causing tremendous personal and family losses and
suffering?
4. Is it unconstitutional for the justice system to actively and inactively assist the
government agencies to violate law, set innocents up, legalize their crime, and
get paid, AGAIN AND AGAIN?

2
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Board of Registered Nursing

II. Table of Contents
I.

Question Presented

2

II.

Table of Contents

3

III.

Table of Authorities

4

IV.

Petition for Writ of Certiorari

5

V.

Opinions Below

5

VI.

Jurisdiction

5

VII.

Constitutional Provisions Involved

5

VIII.

Statement of the Case

\

8

1. A Wrongful Charge
2. Another Setup
3. Direct Appeals
IX.

13

REASONS FOR GRANTING THE WRIT
A. Stop the deprivation of the right to quit a job that
Amendment XIV grants to each nurse, AGAIN AND AGAIN.
B. Stop government agencies from setting innocent up with
their “experts” and depriving their life and liberty.
C. Stop the crime-making machine that government agencies
and justice system have formed. Ensure three branches check each
other and safeguard due process of law and equal protection of the
laws.

X.

CONCLUSION

15

XI.

DECLARATION OF BIN YANG

16

XII.

PROOF OF SERVICE

17

XIII.

APPENDIX

18

3
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Board of Registered Nursing

III. Table of Authorities

Cases

Page

English v. City of Long Beach (1952) 114 Cal. App. 2d 311, 316-317,
250 P.2d 298 [1094.5(e)]

11

Florida v Stephen Diaco, The Florida Bar File No. 2013-10,735 (13F)

15

People v. Scruggs, 52 P.3d 237, 241 (Colo. 2002)
(holding that disbarment was an appropriate remedy for abuse)

15

Yang vs. Medical Board of California # BS175082

9, 14

Statutes
28U.S.C. §1257

5

Constitutional Provisions
United States Constitution, Articles 1-3

5, 8, 10

United States Constitution, Amendment XIV

2,5,8,10

California Code of Civil Procedure 1094.5 (e)

6, 11

California Government Code Disciplinary Proceedings 19572

7, 14

California Business and Professions Code Sec. 820

6, 9, 12, 13

California Business and Professions Code Sec. 821

6

California Business and Professions Code Sec. 822

6

4
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Board of Registered Nursing

IV. Petition for Writ of Certiorari
Bin Yang, a resident of Los Angeles County, respectfully petitions this court for a
writ of certiorari to review the judgment of the Supreme Court of California.

V. Opinions Below
The opinion of the Supreme Court of CA is unpublished. The Supreme Court of
California denied Petitioner's petition for review on Jan 14, 2021. That order is attached
at Appendix list (App C)
VI. Jurisdiction
The date on which the Supreme Court of CA decided Petitioner’s case was Jan
14, 2021. A copy of that decision appears at Appendix A. Bin Yang invokes this Court's
jurisdiction under 28 U.S.C. § 1257, having timely filed this petition during the COVID-19
pandemic for a writ of certiorari within 150 days of the Supreme Court of California's
judgment.

VII. CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
United States Constitution, Amendment XIV:
No state shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any state deprive any person of life
liberty, or property, without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.

United States Constitution, Articles 1-3:
The first three articles of the Constitution establish three branches of government
with specific powers: Executive (headed by the President), Legislative (Congress) and
Judicial (Supreme Court). Power is separated and shared. Each branch can check
other branches’ actions or balance the actions of other branches with their own actions.
5
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Board of Registered Nursing

California Code of Civil Procedure 1094.5 (e):
Where the court finds that there is relevant evidence that, in the exercise of
reasonable diligence, could not have been produced or that was improperly excluded at
the hearing before respondent, it may enter judgment as provided in subdivision (f)
remanding the case to be reconsidered in the light of that evidence; or, in cases in
which the court is authorized by law to exercise its independent judgment on the
evidence, the court may admit the evidence at the hearing on the writ without
remanding the case.

California Business and Professions Code Sec. 820:
Whenever it appears that any person holding a license, certificate or permit
under this division or under any initiative act referred to in this division may be unable to
practice his or her profession safely because the licentiate's ability to practice is
impaired due to mental illness, or physical illness affecting competency, the licensing
agency may order the licentiate to be examined by one or more physicians and
surgeons or psychologists designated by the agency. The report of the examiners shall
be made available to the licentiate and may be received as direct evidence in
proceedings conducted pursuant to Section 822.

California Business and Professions Code Sec. 821:
The licentiate's failure to comply with an order issued under Section 820 shall
constitute grounds for the suspension or revocation of the licentiate's certificate or
license.

California Business and Professions Code Sec. 822:
If a licensing agency determines that its licentiate’s ability to practice his or her
profession safely is impaired because the licentiate is mentally ill, or physically ill
affecting competency, the licensing agency may take action by any one of the following
methods:
(a)Revoking the licentiate’s certificate or license.
(b) Suspending the licentiate’s right to practice.
(c)Placing the licentiate on probation.
(d) Taking such other action in relation to the licentiate as the licensing agency in its
discretion deems proper.
The licensing agency shall not reinstate a revoked or suspended certificate or license
until it has received competent evidence of the absence or control of the condition which
6
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Board of Registered Nursing

caused its action and until it is satisfied that with due regard for the public health and
safety the person’s right to practice his or her profession may be safely reinstated.
California Government Code Disciplinary Proceedings 19572
Each of the following constitutes cause for discipline of an employee, or of a
person whose name appears on any employment list:
(a) Fraud in securing appointment.
(b) Incompetency.
(c) Inefficiency.
(d) Inexcusable neglect of duty.
(e) Insubordination.
(f) Dishonesty.
(g) Drunkenness on duty.
(h) Intemperance.
(i) Addiction to the use of controlled substances.
(j) Inexcusable absence without leave.
(k) Conviction of a felony or conviction of a misdemeanor involving moral turpitude. A
plea or verdict of guilty, or a conviction following a plea of nolo contendere, to a charge
of a felony or any offense involving moral turpitude is deemed to be a conviction within
the meaning of this section.
(l) Immorality.
(m) Discourteous treatment of the public or other employees.
(n) Improper political activity.
(o) Willful disobedience.
(p) Misuse of state property.
(q) Violation of this part or of a board rule.
(r) Violation of the prohibitions set forth in accordance with Section 19990.
(s) Refusal to take and subscribe any oath or affirmation that is required by law in
connection with the employment.
(t) Other failure of good behavior either during or outside of duty hours, which is of such
a nature that it causes discredit to the appointing authority or the person’s employment.
(u) Any negligence, recklessness, or intentional act that results in the death of a patient
of a state hospital serving the mentally disabled or the developmental^ disabled.
(v) The use during duty hours, for training or target practice, of any material that is not
authorized for that use by the appointing power.
7
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Board of Registered Nursing

(w) Unlawful discrimination, including harassment, on any basis listed in subdivision (a)
of Section 12940, as those bases are defined in Sections 12926 and 12926.1, except as
otherwise provided in Section 12940, against the public or other employees while acting
in the capacity of a state employee.
(x) Unlawful retaliation against any other state officer or employee or member of the
public who in good faith reports, discloses, divulges, or otherwise brings to the attention
of, the Attorney General or any other appropriate authority, any facts or information
relative to actual or suspected violation of any law of this state or the United States
occurring on the job or directly related to the job.

VIII. STATEMENT OF THE CASE
United States Constitution, Amendment XIV offers every citizen in any profession
the right to quit their job for any reason, not to mention to avoid being set up. The
Amendment also grants each citizen equal protection of Law Constitutional Provisions.
United States Constitution, Articles 1-3 want executive, legislature and justice branches
to check each other and ensure each to function according to the constitution. However
the case presents an opposite reality.
1. A Wrongful Charge
The case started with a wrongful charge.
On March 30, 2005, Petitioner returned to Lubbock, TX from Houston via
Southwest Airlines and asked for a blanket. Because the attendant did not respond to
her request three times, Petitioner pushed her right forearm for attention, which was
common in China where Petitioner grew up. However, the attendant later claimed that
Petitioner punched in her stomach, made her fall into a cabinet and intended to harm
her. Petitioner’s attorney advised her to plead guilty since she had “no witness.” She
was charged for 70% of the liability for being rear-ended in 1997 at Amarillo, TX, a
nearby city of the same district.

8
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Board of Registered Nursing

In fact, the Traumatic Brain Injury Petitioner suffered in the auto-accident in 1997
was her best witness as she could not have the strength to do what she was accused
of. The airport police report, various tests, and testimonials further support her
innocence. However, none of her attorneys asked about Petitioner’s head injury. No
tests ordered before her attorney pushed her to plead. Petitioner could not link her
head injury with her innocence until 3-13-2018 at the hearing with the Board of
Registered Nursing (Respondent). Because of the wrongful charge, Petitioner had to
go to Wisconsin to apply for a medical license and mistakenly followed someone into a
secure building. Dane County has dismissed the citation since it was an unintentional
entry with no harm.
Petitioner reactivated her nurse license in 2013. No clinical complaint or police
report since. In addition, two mental exams have been done in CA due to the TX issue
with normal finding. Petitioner satisfied the continue education auditing in 2017 and
was not going to renew her RN license in 2019.
2. Another Setup.
Respondent asked Petitioner to take a mental exam per Code 820 in 2017.
Petitioner did not refuse as she supported that each board should ensure its licensees
job safety. However, Respondent insisted that Petitioner go to the "expert of their
choice" and refused to let Petitioner go to university experts who will evaluate Petitioner
based on facts instead of someone’s wish. Also, Respondent lied about their access to
expert data and the fact that they do not exclude university experts at all.
Petitioner has been set up before and was afraid of another “IERF” who dare to
say ANYTHING for money (more details are included in the PETITION FOR WRIT OF
9
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Board of Registered Nursing

CERTIORARI Yang vs the Medical Board of California)! After discovering the lies,
Petitioner recognized that was another set up-- Respondent can either label Petitioner
with a mental illness or accuse her “violation of the Law" for not taking the mental exam
to deny her license and jeopardize her healthcare careers. To avoid time wasting,
Petitioner wrote to the executive officer of Respondent and requested to withdraw her
application (quit), which is the basic rights that the Amendment XIV to the US
constitution grants EVERY citizen. Petitioner also can withdraw her application from
medical boards. However, Respondent refused to let Petitioner go.
Petitioner had to go to the hearing and then the courts. However, the justice
system used various means to prevent her from getting due process, legalize the setup,
and get paid. They turn California government a crime-making machine, violating not
only the Amendment XIV to the US constitution but also Articles 1 -3 of the Constitution.
At the hearing, Petitioner discovered that Respondent did not know that she
already had two mental exams done in California due to the TX issue. Petitioner also
realized for the first time that she could not have the physical strength to do what she
was accused of in TX due to the head injury she suffered in 1997. At the end of the
hearing, Petitioner requested to let her quit again if she could not take a mental exam
from a university expert. After the hearing, she submitted her head CT scan result and
the psychological evaluation from UCLA to Administrative Law Judge (ALJ) and
Respondent.
However, both Deputy Attorney General Vinodhini Ramagopal (DAG) and ALJ
refused to explore test results nor let Petitioner quit. DAG played with facts and
demanded “Any Test” by “Anyone” to assist “her client.” ALJ created more facts to
10
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Board of Registered Nursing

support “his clients”. Respondent denied Petitioner’s RN license in June 2018.
Petitioner had to file Petition for Writ for Mandamus at the Superior Court of Los
Angeles on July 30, 2018.
The rule 1094.5 (e) allows critical evidence to come to the court with due
diligence [English v. City of Long Beach (1952) 114 Cal. App. 2d 311, 316-317, 250
P.2d 298]. Petitioner’s head CT scan result is indisputable evidence to prove her
innocence in Southwest Airlines issue. The psychological evaluation from UCLA further
supports her innocence and is what Respondent needs. She reactivated her license in
2013 not 2017. The Superior Court Judge (SCJ) first said at the hearing on March 21,
2019 that he did not want to spend hours listening to expert witness on CT scan and
head injury. Petitioner contacted Dr. Weiss and got his letter on May 27th, 2019. The
four pieces of evidence are turning points of Petitioner’s case. Petitioner has used her
best due diligence to bring them to the hearing and Respondent and the trial court
therefore, she fully meets the requirement for 1094.5 (e).
However, DAG did her best to exclude the critical head CT scan result and
mental test result, altered facts, and created more stories. SCJ actively assisted her.
When he realized that he could not ignore the critical evidence, SCJ make the critical
evidence sounded like they have already been presented in the Texas US district
court in 2005.
The SCJ knew that Respondent’s analyst was lying about that they had no
access to expert data due to HIPAA, Respondent does not exclude university experts
and Petitioner could not know EVERY doctor in every university. Still, SCJ misled
Petitioner to go against her common sense. Once again, Petitioner requested to
li
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Board of Registered Nursing

withdraw her application. However, SCJ wanted her to “discuss it with Respondent.”
Furthermore, the SCJ always blamed Petitioner for improper proofs of service
WHENEVER DAG did not show up for Ex Parte even Petitioner called and emailed
DAG before 10 am and 24 hours prior.
SCJ denied the petition for writ of mandamus on July 2, 2019 (App. B). On July
11,2019, Petitioner filed a motion to reconsider, which SCJ denied on Sep 17, 2019.
3. Direct Appeal
Petitioner submitted notice to appeal to the 2nd Court of Appeal (COA) on July 2
2019. In her opening brief, Petitioner pointed out that SCJ refused to let Petitioner quit,
excluded critical evidence in trial, sided with DAG, and assisted Respondent to abuse
code 820 and set Petitioner up. However, COA denied the fraud on the court of SCJ
and DAG, stated that Petitioner did not explain how she satisfied the Requirements for
CCP 1094.5 (e) while Petitioner spent lengthy time to do so, and even blamed Petitioner
did not submit Dr. Weiss’ letter at the hearing in March 2018 when Dr. Weiss only wrote
the letter in May 2019. COA denied the appeal on 10-27-2020 (App. A)
Petitioner filed the motion to reconsider on November 6, 2020 after noticing DAG
had turned her nurse license activation date from 2013 to 2017 and denied that
Petitioner had requested to quit/withdraw her license application. However, COA
disregard the false statements and denied the motion to reconsider on November 10
2020. Then Petitioner realized that her parents and others had become indirect victims
of her misfortune and filed the 2nd motion to reconsider on November 12, 2020. COA
denied the motion the next day.

12
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Board of Registered Nursing

Petitioner filed a petition for review at the Supreme Court of CA on November 26,
2020, listed how Respondent set her up and refused to let her withdraw her application
or let her take a mental exam from professionally qualified experts. Petitioner also
explained why she satisfied the requirements for CCP 1094.5 (e), what false statements
DAG had given, and how SCJ and COA manifestly abused their discretion and deprived
Petitioner’s rights. However, the petition was denied on January 14, 2021 (App. C).

IX. REASONS FOR GRANTING THE PETITION
A. Stop the deprivation of the right to quit a job that Amendment XIV
grants to each nurse, AGAIN AND AGAIN.
B. Stop government agencies from setting innocent up with their “experts”
and depriving their life and liberty.
C. Stop the crime-making machine that government agencies and justice
system have formed. Ensure three branches check each other and safeguard
due process of law and equal protection of the laws.
This is one out of a million cases. Petitioner not only had no clinical complaints,
no police report since she reactivated her nurse license in 2013 but also had two
mental exams done in California and could finally prove her innocence in the TX issue.
Above all, Petitioner has never challenged the base of the mental exam and was
willing to comply to best ensure job safety.
However, Respondent abused code 820, insisted Petitioner to go to “their
expert," instead of university experts who will evaluate based on facts instead of
someone’s wish, who Respondent does not exclude. Have been set up before,
Petitioner immediately recognized the new set up and request to withdraw her
application (quit), which is the basic right of every US citizen. Also, Petitioner could
13
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Board of Registered Nursing

withdraw her application from medical boards in California and Texas. However,
Respondent refused to let her quit but abused code 820 and denied her license.
While Respondent arbitrary, capricious, and abusively exercised its discretion to
set Petitioner up, DAG altered facts and blocked critical evidence to assist “her client.”
ALJ refused to let Petitioner quit and created even more stories to make a passionate
healthcare provider look like a potential bomber. SCJ sided with DAG, excluded critical
evidence and misled Petitioner to legalize the setup. When Petitioner requested to quit,
SCJ wanted Petitioner to "discuss it with Respondent.” DOA blurred facts, ignored DAG
and SCJ’s false statements, and blamed Petitioner for not explaining how she satisfied
the Requirements for CCP 1094.5 (e) while Petitioner spent a lengthy time to do so.
COA even blamed Petitioner did not submit Dr. Weiss’ letter at the hearing in March
2018 when Dr. Weiss only wrote his letter in May 2019! The Supreme Court of
California did nothing, which is equal to giving their permission.
This is not the first time for a CA government licensing agency to set innocent up
via “their expert,” and the same legal system helped to legalize the crime and get paid!
More details are included in the PETITION FOR WRIT OF CERTIORARI Yang vs
Medical Board of California.
The deprivation of basic human rights and respect is also a big reason for the
nurse shortage in the US. Nurses ARE NOT ALLOWED to withdraw or quit their
application like other professionals no matter how uncomfortable they feel about their
environment. Respondent does not use code 820 to ensure public safety but to abuse
its nurses to satisfy their Ego. Yet, DAG and judges find ways to legalize Respondent’s
violation and GET PAID, which is far worse than the police brutality on the street.
14
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Board of Registered Nursing

The government is set up for the people and by the people. As a government
licensing agent, Respondent at least should not violate the CA Government Code
19572, understand Petitioner’s concern and accommodate her reasonable request. As
officers of the court, DAG and judges at different levels have more reasons to check
other branches and defend the Constitution per United States Constitution, Articles 1-3.
Florida Supreme Court disbarred Stephen Diaco and 3 other attorney for DUI set
up [Florida v Stephen Diaco The Florida Bar File No. 2013-10,735 (13F)]. Colorado has
disbarred attorneys for abuse [People v. Scruggs, 52 P.3d 237, 241 (Colo. 2002)]. What
DAG and judges at different levels have done is far worse than a DUI setup and abuse.
This case presents this Court with an opportunity to reinforce basic human right
and equal law protection, stop government agencies from setting innocent up via “their
experts,” stop the crime-making machine that government agencies and the justice
system have developed, and ensure three branches function per constitution. Absent
intervention by this Court, the existing crime-making machine will destroy the
Constitution and Democracy that this nation has spent the past 245 years developing,
and both healthcare and citizens will suffer.

X. CONCLUSION
For the foregoing reasons, Petitioner respectfully requests that this Court issue a writ of
certiorari to review the judgment of the Supreme Court of Appeals.
DATED this 10th day of June 2021.
Respectfully submitted

Bin Yang
15
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Board of Registered Nursing

DECLARATION OF BIN YANG
I, Bin Yang, declare:
I am above 18 years old, a party with a beneficial interest in the case. I have the
personal knowledge of the matters set forth in this Declaration and, if called as a
witness, could and would testify truthfully and competently thereto.

I declare under the penalty of perjury under the laws of the State California the
foregoing is true and correct and that the declaration was executed on June 10, 2021,
at Los Angeles, CA.

Date & Time:
6/10/2021

. /

^Bin Yang

16
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Board of Registered Nursing

